GR-90-98-017
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE COUNTY OF SACRAMENTO SHERIFF'S DEPARTMENT
CALIFORNIA
GR-90-98-017
APRIL 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the County of Sacramento Sheriff's Department (SCSD),
California. The SCSD received a grant of $1 million to hire 14 sworn officers under the
Accelerated Hiring, Education, and Deployment Program (AHEAD), $600,000 to redeploy 28.4
sworn officer full-time equivalents (FTEs) into community policing under the Making
Officer Redeployment Effective program for 1995 (MORE 95), $26.6 million to hire 144 sworn
officers under the Universal Hiring Program (UHP), and $1.3 million to redeploy 39.9
officer FTEs to community policing under MORE 96. The purpose of the additional officers
under each of the grant programs is to enhance community policing efforts. 
In brief, our audit determined that the SCSD violated the following grant conditions. 



-   The SCSD failed to comply with two basic DOJ grant requirements. The SCSD
      did not establish separate cost accounting centers (accounts) and was commingling the
      funds received from the COPS grants with other grant and County revenues used to fund
      operations. Because the SCSD failed to comply with the aforementioned grant requirements,
      we determined that the fringe benefit costs ($1,666,073) for the sworn officers hired
      under the AHEAD/UHP grant were unsupported by the accounting records.
-  The SCSD was unable to document the redeployment of 28.4 officer FTEs to
      community policing ensuing from the MORE 95 grant, resulting in $579,534 of unsupported
      costs. In addition, the SCSD charged unallowable costs to the MORE 95 grant for uniforms
      ($3,635) and civilian overtime ($11,245) totaling $14,880.
#####